                              UNITED STATES DEPARTMENT OF EDUCATION
                                     OFFICE OF INSPECTOR GENERAL
                                             501 I STREET, SUITE 9-200
                                          SACRAMENTO, CALIFORNIA 95814
                                     PHONE (916) 930-2388 • FAX (916) 930-2390

                                                 January 17, 2007
                                                                                       Control Number
                                                                                       ED-OIG/A09G0028


Rev. William P. Leahy, S.J., President
Boston College, Office of the President
Botolph House, 18 Old Colony Road
Chestnut Hill, MA 02467

Dear Rev. Leahy:

This Final Audit Report, entitled Boston College’s Verification of Applicant Information
Submitted on the Free Application for Federal Student Aid, presents the results of our audit. The
purpose of the audit was to determine if Boston College completed verification of applicant data
and accurately reported verification results to the U.S. Department of Education (Department)
from July 1, 2005, through June 30, 2006 (award year 2005-2006).




                                                BACKGROUND


Students apply for Federal student aid by completing a Free Application for Federal Student Aid
(FAFSA), which is processed by the Central Processing System (CPS). The CPS uses the
application information and the statutory needs analysis formula to calculate each applicant’s
expected family contribution (EFC). If the EFC is less than the student’s cost of attendance, a
student has a financial need and may be eligible to receive financial aid under the Higher
Education Act of 1965, as amended (HEA), Title IV programs.

The CPS selects applications for verification, which is the process used to ensure that students
and parents report accurate financial and demographic data on the FAFSA. Verification is
required under Subpart E of 34 C.F.R. Part 668. For enrolled students who were selected by the
CPS for verification, the schools verify the accuracy of five items of data: adjusted gross income,
income tax paid, household size, number of students in the household who are enrolled in
college, and certain untaxed income benefits. Students must provide schools with income tax
returns and other documents to support the reported data. The school has completed verification
when it has either determined that the application data are correct or when the corrected data has
been submitted to the CPS. The school must document the verification and maintain a CPS
document in its files showing the student’s final EFC.




     Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A09G0028                                                                                    Page 2 of 4

As described in the Federal Student Aid Handbook 2005-2006, “Application and Verification
Guide,” when a school disburses a Federal Pell grant for a student, the school is required to
report the verification status of the student’s application to the Department’s Common
Origination and Disbursement (COD) system. 1 The student verification status remains blank
when the school has not performed verification because the application was not selected for
verification.

Boston College (College) is a non-profit institution accredited by the New England Association
of Schools and Colleges. The College has an enrollment of about 13,700 students and offers
bachelor’s and graduate’s degrees in more than 50 subjects and interdisciplinary areas. Its
educational programs are provided on a standard-term calendar that is measured in semester
credit hours.

The College participates in the following HEA, Title IV programs: Federal Pell Grant, Federal
Supplemental Educational Opportunity Grant, Federal Family Education Loan, Federal Perkins
Loan and Federal Work-Study. During the period from July 1, 2004 through June 30, 2005, the
College disbursed about $94.5 million in Title IV funds, which included about $2.8 million from
the Federal Pell Grant Program.



                                          AUDIT RESULTS


Boston College had policies and procedures that ensured FAFSA information was verified in
accordance with the applicable HEA provisions, Federal regulations, and Department guidance.
Our analysis of information in the Department’s databases identified 719 Boston College
students who had an application selected by the CPS for verification and received a Pell Grant
disbursement for award year 2005-2006. Our review of the College’s student financial aid files
for a random sample of 50 of the 719 students found that the College properly performed
verification by following its written policies and procedures, obtaining appropriate student-
provided documentation, and accurately reporting changes in application information to the CPS
and student verification statuses to the COD system.




1
 The Department’s COD system performs a variety of functions related to awarding and disbursing Pell grants,
direct loans, and funds from campus-based programs.
Final Report
ED-OIG/A09G0028                                                                                      Page 3 of 4



                     OBJECTIVE, SCOPE, AND METHODOLOGY


Our audit objective was to determine if Boston College completed verification of applicant data
and accurately reported verification results to the Department for award year 2005-2006. To
accomplish our objective, we—
    •   Gained an understanding of applicable laws, regulations, and the Department’s Federal
        Student Aid Handbook 2005-2006, “Application and Verification Guide.”
    •   Reviewed the College’s single audit report prepared by its independent public accountant
        for the fiscal years ended May 31, 2004, and May 31, 2005, reports issued by its internal
        audit department, and correspondence from the College’s accrediting agency.
    •   Gained an understanding of the College’s internal control for the verification process
        by 1) reviewing the College’s written policies and procedures, 2) obtaining information
        on the manual and electronic processes applicable to verification and reporting of the
        verification status to the COD system, and 3) interviewing financial aid staff involved in
        the verification process.
    •   Evaluated documentation in student financial aid files related to the verification of
        applicant data.

To evaluate the College’s procedures and compliance with verification requirements, we
reviewed documentation in student financial aid files for 50 of the 719 students who had an
application selected for verification by the CPS and who received a Pell Grant disbursement for
award year 2005-2006. To select the sample, we stratified the 719 students into two groups:
a) the 308 students with applications that contained more than three records in the CPS,
indicating that application data had been resubmitted to the CPS at least three times 2 and b) the
411 students with applications that had three or less records. We randomly selected 25 students
from each group.

We relied on data extracted from the CPS and the Department’s National Student Loan Data
System to identify the College’s students who had an application selected for verification by the
CPS and who received a Pell Grant disbursement for award year 2005-2006 (sampling universe).
To assess the completeness of the extracted data, we compared the total records on the extract to
totals reported on Department management information reports. During our review of the
50 student financial aid files, we confirmed that the documentation showed that CPS had
selected the students for verification. We concluded that the extracted data were sufficiently
reliable for use in selecting the sample of students reviewed in the audit.



2
  Our analyses of data extracted from the Department’s databases found that a significant portion of Boston
College’s students that were selected for verification had more than three records on the CPS. The College’s
Associate Director of Student Services explained that a file containing application changes for 273 students had
been mistakenly sent to the CPS three times. This occurred due to a miscommunication with the Department and a
glitch in a file transfer protocol upgrade that was subsequently corrected. Of the 25 students selected from this
group, we identified 11 students for whom the same application changes were transmitted to the CPS three or more
times.
Final Report
ED-OIG/A09G0028                                                                      Page 4 of 4

We performed our fieldwork at the Boston College campus in Chestnut Hill, Massachusetts. We
held an exit briefing with College officials on November 28, 2006. Our audit was performed in
accordance with generally accepted government auditing standards appropriate to the scope of
the review described above.


                            ADMINISTRATIVE MATTER


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation and assistance extended by your staff during the audit. If you
have any questions, please contact me at (916) 930-2399.


                                            Sincerely,

                                            /s/
                                            Gloria Pilotti
                                            Regional Inspector General for Audit
